BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for Writ of
Certiorari in Harold Persaud v. United States of
America, were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 14th day of August, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
RICHARD G. LILLIE

Counsel of Record
GRETCHEN A. HOLDERMAN
Lillie & Holderman
2003 St. Clair Avenue
Cleveland, Ohio 44114
(216) 781-0734
r lillie@lillieholderman.com
gholderman@lillieholderman.com
Attorneys for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 14, 2019.

/

Julie A. {e shner
Becker
a gh er Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

av ~ f .I 4, d!Jl 9

Notary~ ~

tJ.

~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14. 2023

